             ACQUISITION MANAGEMENT OF THE
          JOINT PERSONNEL ADJUDICATION SYSTEM


Report No. D-2001-112                   May 5, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ASD(C3I)              Assistant Security of Defense (Command, Control,
                         Communications, and Intelligence)
JAMS                  Joint Adjudication Management System
JCAVS                 Joint Clearance and Access Verification System
JPAS                  Joint Personnel Adjudication System
                      Office of the Inspector General, DoD
Report No. D-2001-112                                                 May 5, 2001
  (Project No. D2001AL-0012)

 Acquisition Management of the Joint Personnel Adjudication System

                               Executive Summary

Introduction. This report discusses the acquisition management of the Joint Personnel
Adjudication System by the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) and the Air Force Security and Communication
Management Directorate. This report is one of a series of audit reports addressing
personnel security clearance and access issues.

The Joint Personnel Adjudication System will provide DoD with a common information
resource for granting and sharing personnel security eligibility determinations and
recording personnel access to sensitive and non-sensitive compartmented information.
Its common database, linked by the Joint Adjudication Management System and the
Joint Clearance and Access Verification System applications, will standardize security
clearance adjudications and verifications in compliance with DoD Regulation 5200.2-R,
“Personnel Security Program Regulation,” January 1, 1987.

DoD, Military Departments, and DoD Components funded the Joint Personnel
Adjudication System information technology investment. Through the fourth quarter of
FY1999, the Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) provided the Air Force with $8 million for Joint Personnel Adjudication
System development and purchases of hardware and software. Since the start of
FY 2000, the Military Departments and DoD Components financed the Joint Personnel
Adjudication System by transferring Operations and Maintenance funds to the Air
Force. For FY 2001 through FY 2007, the Air Force estimates that the Joint Personnel
Adjudication System costs assessed to the Military Departments and DoD Components
will amount to $34 million.

Objectives. The overall audit objective was to evaluate the acquisition management of
the Joint Personnel Adjudication System. Specifically, the audit determined whether
the system was being cost-effectively acquired, monitored, tested, and prepared for
deployment and system life-cycle support in accordance with DoD Directive 5000.1,
“Defense Acquisition,” March 15, 1996 (subsequently revised on October 23, 2000),
and DoD Directive 5200.28, “Security Requirements for Automated Information
Systems (AISs),” March 21, 1988. In addition, we evaluated the management control
program related to the objective. See Appendix A for a discussion of the audit scope
and methodology and the review of the management control program.

Results. The Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) and the Air Force did not manage the Joint Personnel Adjudication System
as an information technology investment. As a result, acquisition planning for the Joint
Personnel Adjudication System did not extend beyond the Future Years Defense Plan;
funding for the system acquisition did not comply with DoD Regulation 7000.14-R,
“Department of Defense Financial Management Regulation,” June 2000, and acquisition
management oversight did not comply with the intent of the Clinger-Cohen Act of 1996.
During the audit, the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) and the Air Force agreed to work towards:
  • implementing a project plan for developing life-cycle acquisition strategy costs,
  • performing independent cost and economic analyses,
  • transferring program funding for development and deployment from the
     Operations and Maintenance appropriation to the Research, Development, Test
     and Evaluation appropriation, and
  • transferring program funding and accounting responsibilities from the Air Force.

However, despite the system’s significance in support of DoD missions, action had not
been initiated to provide a prudent level of acquisition oversight. See the Finding
section for details on the audit results.

Summary of Recommendations. We recommend that the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence) designate the Joint
Personnel Adjudication System as a Major Information Technology Investment, subject
to oversight of the DoD Chief Information Officer.

Management Comments. The Office of the Assistant Secretary of Defense
(Command, Control, Communications, and Intelligence) concurred with the report
finding and recommendation. A discussion of management comments is in the Finding
section of the report, and the complete text of the management comments is in the
Management Comments section.

Audit Response. The Office of the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) actions with respect to the recommendation
are responsive. With respect to moving Joint Personnel Adjudication System funding
and accountability out of the Air Force, we request that management provide additional
comments by June 4, 2001 regarding when such action would be achievable.




                                          ii
Table of Contents

Executive Summary                                                          i


Introduction
     Background                                                            1
     Objective                                                             2

Finding
     Acquisition of the Joint Personnel Adjudication System Information
       Technology Investment                                               4

Appendixes
     A. Audit Process
          Scope                                                           10
          Methodology                                                     11
          Management Control Program Review                               11
          Prior Coverage                                                  12
     B. DoD Central Adjudication Facilities                               13
     C. Acquisition Guidance                                              14
     D. Report Distribution                                               16

Management Comments
     Assistant Secretary of Defense (Command, Control, Communications,
       and Intelligence)                                                  19
Background
    This report is one in a series of audit reports addressing personnel security
    clearance and access issues. Previous Inspector General, DoD, reports addressed
    tracking security clearance requests, security clearances for personnel in mission-
    critical and high risk positions, feasibility of consolidating adjudicative facilities,
    the lack of access reciprocity within DoD special access programs, personnel
    resources needed at the DoD adjudicative facilities, the program management and
    acquisition of the Case Control Management System, and the accuracy, integrity,
    timeliness, and availability of information in the Defense Clearance and
    Investigation Index Database.

    The Joint Personnel Adjudication System. The Joint Personnel Adjudication
    System (JPAS) will provide DoD with a common information resource for granting
    and sharing personnel security eligibility determinations and recording personnel
    access to sensitive and non-sensitive compartmented information. Its common
    database, linked by the Joint Adjudication Management System (JAMS) and the
    Joint Clearance and Access Verification System (JCAVS) applications, will
    standardize security clearance adjudications in compliance with DoD Regulation
    5200.2-R, “Personnel Security Program Regulation,” January 1, 1987, and will
    provide security managers with eligibility verifications for personnel desiring access
    to sensitive and classified facilities, weapons systems, and information. Also, JPAS
    will provide reports for programming and managing workloads at the DoD central
    adjudication facilities and locations requiring cleared personnel. See Appendix B
    for a list of the DoD central adjudication facilities.

    JAMS and JCAVS. The JAMS and JCAVS applications will not create new data
    from stored database records. However, they will automatically modify information
    stored in the JPAS common database. The JAMS and JCAVS applications extract
    information from the JPAS database and format and display it as electronic reports
    on adjudicators’ and security managers’ desktop monitors. Because the common
    database contains records affecting personnel privacy, JPAS is defined by the
    Privacy Act (5 U.S.C 552a) as a sensitive but unclassified system.

    Processing. JPAS and its applications will not measurably expedite processing
    clearance eligibilities and access to sensitive and classified assets. Determinations
    affecting personnel trustworthiness require off-line decisions by adjudicators and
    security managers. However, the deployed JAMS with its electronic reports will
    relieve the central adjudication facilities from handling paper documents.
    According to a JPAS contractor-developed economic analysis, paper handling
    consumed more than 1 million hours over a 6-year period. In addition to
    replacing paper documents with electronic reports, JPAS will allow JAMS users
    to grant clearance eligibilities from determinations made by other adjudication
    facilities. Adjudicators can obtain and review JAMS electronic reports supporting
    prior eligibility determinations and accept decisions without initiating personnel
    reinvestigations. In addition, JPAS minimizes work delays for newly hired and
    visiting personnel with adjudicated clearances. Security managers connected to
    JCAVS can grant or deny personnel access to sensitive and classified resources
    from database information placed on electronic reports.



                                          1
           Hardware Configuration. JPAS is hosted on a web-based hardware, common
           database configuration. The primary hardware configuration for the JPAS
           common database resides at Bolling Air Force Base, Washington, D.C., with a
           back-up configuration in Monterey, California. The system is sized for growth
           in workload. It is designed to accommodate 450 JAMS and 30,000 JCAVS
           users, assist in processing 750,000 adjudication cases annually, maintain
           clearance designations for 5 million people, and provide statistical data and
           capabilities to conduct personnel security studies.

           Oversight and Management. The Assistant Secretary of Defense (Command,
           Control, Communications, and Intelligence) [ASD(C3I)] functionally sponsors
           JPAS, but has not designated JPAS as either an Acquisition Category IA1 or a
           Major Information Technology Investment2 information system. The Assistant
           Secretary assigned program management responsibilities to the Air Force for
           acquisition and operations and maintenance. Contractors provide the Air Force
           services for development, integration and deployment, information assurance,
           and verification and validation.

           Funding. DoD, the Military Departments, and DoD Components funded the
           JPAS information technology investment. Through the fourth quarter of
           FY 1999, ASD(C3I) provided the Air Force with $8 million for JPAS
           development and purchases of hardware and software. Since the start of
           FY 2000, the Military Departments and DoD Components financed the JPAS
           investment with Operations and Maintenance funds transferred to the Air Force.
           For FY 2001 through FY 2007, the Air Force estimates that JPAS costs assessed
           to the Military Departments and DoD Components will amount to $34 million.

           Testing and Deployment. The Air Force is testing and deploying JPAS. Until
           the JAMS and JCAS applications demonstrate adequate system effectiveness and
           reliability, legacy adjudication systems will operate in parallel with the deployed
           JPAS. Initial Operational Capability is planned for October 2001.




1
    Programs are defined as Acquisition Category IA automated information systems if costs for any single year
    exceed $32 million (FY 2000 constant dollars), total program costs exceed $126 million, total life-cycle
    costs exceed $378 million, or if ASD(C3I) designates them as Acquisition Category IA systems.
2
    Programs are defined as Major Information Technology Investment if ASD(C3I) determines that a
    program requires special Office of Secretary of Defense management attention because of its importance
    to the DoD mission; its high development, operating, or maintenance costs; or its significant role in
    administering DoD programs, finances, property, or other resources.



                                                      2
Objective
    The overall audit objective was to evaluate the acquisition management of JPAS.
    Specifically, the audit determined whether the system was being cost-effectively
    acquired, monitored, tested, and prepared for deployment and system life-cycle
    support in accordance with DoD Directive 5000.1, “Defense Acquisition,”
    March 15, 1996 (subsequently revised on October 23, 2000), and DoD
    Directive 5200.28, “Security Requirements for Automated Information
    Systems (AISs),” March 21, 1988. In addition, we evaluated the management
    control program related to the objective. See Appendix A for a discussion of
    the audit scope and methodology and the review of the management control
    program.




                                       3
            Acquisition of the Joint Personnel
            Adjudication System Information
            Technology Investment
            The ASD(C3I) and the Air Force did not manage the JPAS as an
            information technology investment because the acquisition strategy was
            not redefined to reflect the change made to the system’s architecture. As
            a result, acquisition planning for the JPAS technology investment did not
            extend beyond the Future Years Defense Plan and funding for the system
            acquisition was not in compliance with DoD Regulation 7000.14-R,
            “Department of Defense Financial Management Regulation,” June 2000.
            Also, acquisition management oversight was not provided because JPAS
            was not designated for special management attention, despite its
            criticality in support of DoD missions. During the audit, ASD(C3I) and
            the Air Force agreed to work towards:
            • implementing a project plan for developing life-cycle acquisition
                strategy costs,
            • performing independent cost and economic analyses,
            • transferring program funding for development and deployment from
                the Operations and Maintenance appropriation to the Research,
                Development, Test and Evaluation appropriation, and
            • transferring program funding and accounting responsibilities from the
                Air Force.

Mandatory Guidance
     The Office of Management and Budget and DoD provide managers with
     guidance for acquiring information technology investments and safeguarding
     information. Appendix C describes the guidance as it relates to the JPAS
     acquisition.

Alternatives
     Decisionmakers had alternative information systems and hardware architectures
     available for the JPAS business solution. More than one information system
     was available for processing and verifying security eligibilities, and more than
     one database architecture alternative was available for storing common
     information.




                                         4
Air Force Sentinel Key
           The JPAS Executive Steering Committee/Configuration Management Board3
           adapted the Air Force Sentinel Key database system as a model for the JPAS
           clearance eligibility and verification business solution. Data extracted from the
           Sentinel Key database provided Air Force adjudicators with sufficient
           information to comply with the procedures in DoD Regulation 5200.2-R for
           granting or denying personnel security clearance eligibilities. In addition, Air
           Force security managers used the Sentinel Key database to verify clearance
           eligibilities of Air Force personnel to access secured facilities, weapons
           systems, and classified information. Also, lessons learned from Sentinel Key
           could be applied to JPAS for mitigating risks, organizing integrated product
           teams for determining application report requirements, and preparing documents
           for fund requests.

Architectures
           Two database system alternatives were available for storing common
           information, extracting data, formatting, and displaying information on electronic
           reports. Although the distributed and centralized hardware architectures
           differed, the differences between them would not be noticeable to the user.

           Distributed Architecture. A distributed architecture connects users to a
           network of internal and external databases. Sites determining security
           eligibilities operate and maintain similar hardware. The hardware, when
           combined with inserted software applications such as JAMS and JCAVS,
           provides users with a standardized and interoperable information technology
           system for processing security clearance eligibilities and verifications. Further,
           each database location incurs system operations and maintenance costs for
           processing security eligibilities and verifications.

           Centralized Architecture. A centralized architecture links adjudication and
           verification processing sites to a single database. To obtain system application
           reports from their workstations, users access the single database through a web
           browser and a non-secure Internet connection. That alternative eliminates the
           network of databases and the need for installed software applications at
           adjudication processing sites. In addition, system hardware and operations and
           maintenance costs are confined to one location rather than spread among
           numerous sites.




3
    The Director of Personnel Security, ASD(C3I), and the heads of the nine DoD Central Adjudication
    Facilities comprise the JPAS Executive Steering Committee/Configuration Management Board.



                                                     5
Architecture Change
           Initially, JPAS was designed as a network of distributed databases. However, in
           August 1999, the JPAS Executive Steering Committee/Configuration Management
           Board decided to change the system architecture to a centralized database to:
               • reduce the risk of reoccurring stovepipe systems,
               • provide direct data standardization, synchronization, and configuration
                    control,
               • eliminate the purchase of servers and additional hardware at adjudication
                    processing sites,
               • facilitate the interface of legacy and migration systems, and
               • eliminate up to $17 million in duplicative software licensing and
                    hardware costs over a 6-year period.

           However, the acquisition strategy for JPAS was not redefined to reflect the
           architecture change.

Acquisition Strategy
           The ASD(C3I) and the Air Force continued to manage the JPAS as a network of
           databases populated with common information. As a result, life-cycle planning
           did not extend beyond the Future Years Defense Plan, and funding for the
           acquisition did not comply with the Under Secretary of Defense (Comptroller)
           memorandum,4 “Clarification of Policy–Budget for Information Technology and
           Automated Information Systems,” October 26, 1999. Also, the DoD Chief
           Information Officer did not provide acquisition oversight in accordance with
           Clinger-Cohen Act of 1996. 5 However, during the audit, the ASD(C3I) and the
           Air Force agreed to extend life-cycle planning beyond the Future Years Defense
           Plan and address program funding issues.

           Life-Cycle Planning. Life-cycle planning for JPAS was incomplete. Life-cycle
           cradle to grave cost estimates measure returns on investments and provide
           baselines for evaluating performance and progress. Although the Air Force did
           prepare JPAS life-cycle management plans and economic analyses, the documents
           did not comply with Office of Management and Budget Circular A-130,
           “Management of Federal Information Resources,” November 30, 2000 guidance.
           The documents did not extend beyond the system’s deployment and initial years of
           operation. The documents supported funding for the Future Years Defense Plan
           rather than justified JPAS as a life-cycle information technology investment with
           identifiable development, deployment, and operations and maintenance phases.

4
    The DoD Comptroller policy clarification was later incorporated into DoD Regulation 7000.14-R,
    Volume 2A, “Budget Formulation and Presentation,” June 2000.
5
    Public Law 104-106, Division E, “National Defense Authorization Act for Fiscal Year 1996,
    (Information Technology Management Reform),” February 10, 1996.



                                                     6
Further, performance and progress measurements could not be made because
life-cycle baselines did not exist. Absent baselines for cost, schedule, and
performance, actual versus planned variations could not be determined and
indices for projecting results could not be computed.

Funding. Funding for JPAS development costs did not comply with the
October 1999 DoD Comptroller policy clarification for funding information
technology investments. Prior to the October 1999 policy clarification,
Operations and Maintenance and Procurement appropriations rather than
Research, Development, Test and Evaluation appropriations could be used to
fund information technology systems when commercial-off-the-shelf software
was obtained or modified for existing systems. Because JPAS was defined as a
commercial off-the-shelf system, the ASD(C3I) and the Air Force financed
JAMS and JCAVS software applications for JPAS with Operations and
Maintenance appropriations and financed system hardware costs with
Procurement appropriations. However, subsequent to the policy clarification,
the ASD(C3I) and the Air Force continued to fund JPAS with Operations and
Maintenance and Procurement appropriations.

Further, program costs were charged to the Air Force when charges could not
be specifically identified to JPAS equipment procurements or contracted
development and maintenance services. Costs for the JPAS program office
direct labor, overhead, and other support costs were charged to the Air Force
Central Adjudication Facility instead of JPAS.

Oversight. The DoD Chief Information Officer did not demonstrate oversight
involvement in the acquisition of the JPAS. The Clinger-Cohen Act requires
Chief Information Officers to monitor and evaluate the performance of
information technology programs and advise the heads of agencies whether to
continue, modify, or terminate a program. JPAS supports the eligibility
adjudication and verification business processes for granting security clearances
to military, civilian, and contractor personnel. Accordingly, any processing
delay caused by JPAS could also delay DoD and contractor personnel from
performing assigned functions. As a result, JPAS requires Chief Information
Officer oversight because of its significance in supporting DoD missions.

Management Actions. In response to an Inspector General, DoD, status
briefing on the audit, the ASD(C3I) and the Air Force agreed to work towards:
    • implementing a project plan for developing life-cycle acquisition strategy
        costs,
    • performing independent cost and economic analyses,
    • transferring program funding for development and deployment from the
        Operations and Maintenance appropriation to the Research,
        Development, Test and Evaluation appropriation, and
    • transferring program funding and accounting responsibilities from the
        Air Force.




                                    7
Information Security and Integrity
     The ASD(C3I) and the Air Force were completing information security
     requirements for certifying and accrediting JPAS. Further, information migrating
     to the centralized database was being reviewed for completeness and accuracy.

     Information Security. Information security was being evaluated during JPAS
     beta testing. Without an off-line test bed capability for evaluating system
     operational suitability, adjudication facilities and security managers were
     processing actual cases to determine JPAS effectiveness, reliability,
     maintainability, and information security. Testing began in January 2001 after
     the Air Force Designated Approval Authority for information security granted
     the JPAS program office an Interim Approval To Operate. Almost 50 percent
     of the tests had been completed.

     Information Integrity. The ASD(C3I) and the Air Force were actively
     engaged in resolving JPAS data discrepancies to ensure system accuracy and
     reliability. System efficiency and effectiveness depend on the quality of
     information stored in the JPAS central database. Legacy databases maintained
     by the Component adjudication facilities were being compared with information
     stored at the Defense Manpower Data Center and the Defense Civilian
     Personnel Data Center to identify discrepancies. When discrepancies were
     identified, research was initiated to resolve the conflicts. However, the inability
     to extract and obtain quality data from the legacy systems has delayed progress
     in populating the JPAS central database. As a result, Initial Operational
     Capability could be extended beyond October 2001.

Conclusion
     The ASD(C3I) and the Air Force did not manage the JPAS as an information
     technology investment when the system acquisition strategy changed from a
     network of distributed database systems to a centralized database system. As a
     result, acquisition planning for the JPAS technology investment did not extend
     beyond the Future Years Defense Plan, and funding for the system acquisition
     did not comply with DoD Regulation 7000.14-R. Also, despite the system’s
     criticality in support of DoD missions, acquisition management oversight was
     not provided in accordance with the Clinger-Cohen Act.

     Although acquisition management of JPAS did not comply with Office of
     Management and Budget and DoD guidance, the ASD(C3I) and the Air Force
     had applied lessons learned from the acquisition of the Air Force Sentinel Key
     database system, organized integrated product teams for determining system
     requirements, and prepared documents for funding requests. Also, system tests
     were performed to determine the effectiveness and reliability of the system’s
     information security. Further, information migrating from legacy databases was
     analyzed for integrity. However, due to the inability to extract and obtain
     quality data from the legacy systems, delays occurred in populating the JPAS
     central database.


                                          8
    During the audit, the ASD(C3I) and the Air Force agreed to work towards
    extending life-cycle planning beyond the Future Years Defense Plan and
    addressing program funding issues. However, despite the system’s significance in
    support of DoD missions, action had not been initiated to provide a prudent level
    of acquisition oversight.

Recommendation and Management Comments
    We recommend that the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence) designate the Joint Personnel
    Adjudication System as a Major Information Technology Investment,
    subject to oversight of the DoD Chief Information Officer.

    Management Comments. The Director of the Security Directorate, Assistant
    Secretary of Defense (Command, Control, Communications, and Intelligence),
    concurred and stated that the DoD Chief Information Officer will be the Joint
    Personnel Adjudication System milestone decision authority and will provide
    oversight of the program. The DoD Chief Information Officer will monitor the
    System’s progress using the quarterly Defense Acquisition Executive Summary
    reports starting with the fourth quarter of FY 2001.

    Management also stated that while it initially had no opposition to moving Joint
    Personnel Adjudication System funding and accounting responsibilities out of
    the Air Force, it may not be desirable or achievable in the near future without
    adversely impacting progress on the Joint Personnel Adjudication System.

    Audit Response. Management actions with respect to the recommendation are
    responsive. With respect to moving Joint Personnel Adjudication System
    funding and accountability out of the Air Force, we request additional comments
    as to when such action would be achievable.




                                        9
Appendix A. Audit Process

Scope
    Work Performed. We conducted this program audit from October 2000
    through February 2001 and reviewed documentation dated from May 1995
    through February 2001. To accomplish the audit objective we:
           • Interviewed officials and obtained documentation from the offices of
              the ASD(C3I), the Air Force Program Management Office, the Air
              Force Pentagon Communications Agency, cognizant officials and
              personnel involved in the acquisition of the JPAS information
              technology investment, and contractor personnel.
           • Reviewed available documents related to program requirements,
              program definition, program assessments and decision reviews,
              periodic reporting, program management and oversight, and
              information system security.
           • Evaluated the adequacy of management controls related to the
              acquisition of the JPAS information technology investment.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measure:

    FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain future
    by pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineer the Department to achieve a
    21st century infrastructure. (01-DoD-2)

    FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial and
    information management. (01-DoD-2.5)
    Performance Measure 2.5.3: Qualitative Assessment of Reforming
    Information Technology Management. (01-DoD-2.5.3)




                                       10
    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals:

    Information Technology Management Functional Area.
          • Objective. Become a mission partner.
              Goal. Serve mission information users as customers. (ITM 1.2)

           •   Objective. Provide services that satisfy customer information needs.
               Goal. Build architecture and performance infrastructures. (ITM 2.1)
               Goal. Improve information technology management tools. (ITM-2.4)
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Information Security and DoD Systems Modernization high-risk areas.

Methodology
    We conducted this program audit in accordance with auditing standards issued
    by the Comptroller of the United States, as implemented by the Inspector
    General, DoD. Accordingly, we included tests of management controls
    considered necessary. We did not use computer-processed information to
    perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within and outside DoD. Further details are available upon
    request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996, require DoD organizations to
    implement a comprehensive system of management controls that provides
    reasonable assurance that programs are operating as intended and to evaluate the
    adequacy of the controls.




                                       11
    Scope of the Review of the Management Control Program. In accordance
    with DoD Directive 5000.1, DoD Instruction 5000.2, “Operation of the Defense
    Acquisition System,” October 23, 2000, and DoD Regulation 5000.2-R,
    “Mandatory Procedures for Major Defense Acquisition Programs (MDAPs) and
    Major Automated Information System (MAIS) Acquisition Programs,”
    March 15, 1996 (subsequently revised on January 4, 2001), acquisition
    managers are to apply program cost, schedule, and performance parameters to
    control objectives for implementing DoD Directive 5010.38 requirements.
    Accordingly, we limited our review to management controls directly related to
    the acquisition management and information security of the JPAS. We also
    reviewed management’s self-evaluation of management controls applicable to
    the acquisition of JPAS information technology.

    Adequacy of the Management Controls. Management controls were
    inadequate for the acquisition of the JPAS. Life-cycle plans were not
    developed, nor were program baselines determined for the information
    technology investment. As a result, an internal management control system for
    monitoring program performance and progress could not be implemented. Cost,
    schedule, and performance deviations could not be identified and measurement
    indices could not be computed for projecting results. To correct its management
    control deficiencies, the Air Force agreed to develop life-cycle costs and
    perform independent cost and economic analyses. Oversight of the JPAS
    acquisition, however, remains insufficient. Implementation of our
    recommendation for increased oversight by the DoD Chief Information Officer
    should correct this weakness. A copy of the report will be sent to the senior
    official in charge of management controls for the ASD(C3I).

    Adequacy of Management’s Self-Evaluation. Neither the ASD(C3I) nor the
    Air Force identified JPAS as an assessable unit.

Prior Coverage
    During the last 5 years, no reports addressing the JPAS information technology
    investment have been issued.




                                      12
Appendix B. DoD Central Adjudication Facilities
   The JPAS central database will support the following nine DoD central
   adjudication facilities:

          •   Department of the Army Central Clearance Facility,
                 Fort Meade, Maryland

          •   Department of the Navy Central Adjudication Facility,
                 Washington Navy Yard, Washington, District of Columbia

          •   Department of the Air Force Central Adjudication Facility,
                 Bolling Air Force Base, Washington, District of Columbia

          •   Washington Headquarters Service Central Adjudication Facility,
                Arlington, Virginia

          •   Defense Intelligence Agency Central Adjudication Division,
                 Arlington, Virginia

          •   Joint Chiefs of Staff-Security/Central Adjudication Branch,
                  Pentagon, Washington, District of Columbia

          •   National Security Agency Central Adjudication Division,
                 Fort Meade, Maryland

          •   Defense Security Service-Defense Industrial Security Clearance
                 Office Central Adjudication Division,
                 Columbus, Ohio

          •   Defense Office of Hearings and Appeals,
                 Arlington, Virginia, and Columbus, Ohio




                                      13
Appendix C. Acquisition Guidance
    The Office of Management and Budget and DoD provide managers with
    guidance for acquiring information technology investments and safeguarding
    information assets.

Office of Management and Budget
    Office of Management and Budget Circular A-130, “Management of Federal
    Information Resources,” November 30, 2000, implements numerous public laws
    and other Office of Management and Budget guidance that address acquisition of
    information technology investments and security of personal information. In
    accordance with the Cohen-Clinger Act of 1996, the Circular requires that:

       •   Cost benefit analyses be prepared for each system throughout its life cycle.

       •   Performance measures be implemented to provide timely information
           regarding the progress of an information technology program in terms of
           cost and capability to meet specified requirements, timeliness, and
           quality.

       •   Major information systems proceed in a timely fashion toward agreed-
           upon milestones in an information system life cycle.

       •   Chief information officers monitor and evaluate the performance of
           information technology investments through the capital planning
           investment control process, and advise the agency head on whether to
           continue, modify, or terminate a program or project.

    Further, when an individual’s right to privacy must be protected, the Circular
    requires management controls for safeguarding information assets. Those controls
    include:

       •   the assignment of a person who is responsible for ensuring adequate
           system security,

       •   the development of security plans for all systems containing sensitive
           information,

       •   periodic security reviews to determine the effectiveness of controls, and

       •   a security control assessment by a management official before a system
           processes information.




                                       14
DoD Guidance
    DoD Directive 5000.1. DoD Directive 5000.1, “Defense Acquisition,”
    March 15, 1996 (subsequently revised on October 23, 2000), establishes a
    disciplined life-cycle management approach for acquiring quality products. The
    Directive requires rigorous internal management control systems for identifying
    deviations from approved program baselines.

    DoD Directive 5200.28. DoD Directive 5200.28, “Security Requirements for
    Automated Information Systems (AISs),” March 21, 1988, provides mandatory
    guidance for safeguarding classified information and information that might
    affect the privacy of DoD personnel. It implements security safeguard
    provisions of Office of Management and Budget Circular A-130, and is a
    reference source for DoD Instruction 5200.40, “DoD Information Technology
    Security Certification and Accreditation Process (DITSCAP),” June 1, 1998,
    and Air Force Systems Security Instruction 5024, Volume 1, “The Certification
    and Accreditation (C&A) Process,” September 1, 1997.

    DoD Instruction 5000.2. DoD Instruction 5000.2, “Operation of the Defense
    Acquisition System,” Change 1, January 4, 2001, establishes a general approach
    for managing system acquisitions with best life-cycle solutions for satisfying
    user requirements. The Instruction requires chief information officers to
    confirm that mission-critical and essential information systems are developed in
    accordance with the Clinger-Cohen Act of 1996 before approvals are granted for
    milestone advancements.

    DoD Regulation 5000.2-R. Interim DoD Regulation 5000.2-R, “Mandatory
    Procedures for Major Defense Acquisition Programs (MDAPs) and Major
    Automated Information System (MAIS) Acquisition Programs,” January 4, 2001,
    establishes life-cycle procedures for managing major acquisition programs and a
    model for other system acquisitions.




                                       15
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Chief, Defense Security Service-Defense Industrial Security Clearance Office
      Central Adjudication Division
Director, Administration and Management

Department of the Army
Commander, Department of the Army Central Clearance Facility
Auditor General, Department of the Army

Department of the Navy
Director, Department of the Navy Central Adjudication Facility
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Director, Office of the Administrative Assistant, Secretary of the Air Force
Director, Department of the Air Force Central Adjudication Facility
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Intelligence Agency Central Adjudication Division
Inspector General, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, Defense Office of Hearings and Appeals
Director, National Security Agency
   Chief, National Security Agency Central Adjudication Division
   Inspector General, National Security Agency
Chief, Joint Chiefs of Staff-Security/Central Adjudication Branch
Chief, Washington Headquarters Service Central Adjudication Facility


                                         16
Non-Defense Federal Organizations
Office of Management and Budget
Office of Information and Regulatory Affairs

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         17
Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) Comments




                      19
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report, are listed below.

Mary L. Ugone
Charles M. Santoni
David M. Wyte
Donald Stockton
Steve J. Bressi
Robert R. Johnson
Walter Bohinski
Krista S. Gordon
